LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 30, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-869: DAVID E. HENRY V. CASTLE MEDICAL CENTER
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Respondent's Brief
in Opposition to Petition for Writ of Certiorari referenced above contains 6,714 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of March 2021.

